No. 20-1357

BOARD OF COUNTY COMMISSIONERS,
WELD COUNTY, COLORADO
Petitioner,

v.

LAURIE EXBY-STOLLEY,
Respondent.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on April 20, 2021, a copy of the Letter Requesting
Extension of Time for Respondent Laurie Exby-Stolley to respond to the petition for
certiorari in this case, as required by U.S. Supreme Court Rule 30.4, was served via
email and via U.S. Mail, on the following:

SEAN MAROTTA

Counsel of Record

REEDY C. SWANSON
PATRICK C. VALENCIA
HOGAN LOVELLS US LLP
555 Thirteenth Street, N.W.
Washington, D.C. 20004

(202) 637-5600
sean.marotta@hoganlovells.com
Counsel for Petitioner

on B. Wesoky
DARLING MILLIGAN PC
CHIRLYN SCROGGINS 1331 17% Street, Suite 800
NOTARY PUBLIC - STATE OF COLORADO Denver, Colorado 80202
214007576 ,
MY cousin ExeRes FEB 23, 2025 (3038) 623-9133

 

jwesoky@darlingmilligan.com

Counsel for Respondent

Sworn to and subscribed before me this 20tt day of April 2021.

a)
HIRLYN SGROGGINS

NOTARY PUBLIC
State of Colorado
